<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

          H. Res. 634, H. Res. 660, H. Res. 728, H. Res. 729,
          H. Res. 750, H. Res. 780, H. Res. 808, H. Res. 810,
             H. Res. 821, H.R. 4481, H.R. 5537, H.R. 5732,
                             and H.R. 5094

                               __________

                             JULY 14, 2016

                               __________

                           Serial No. 114-207

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                       

                                 ______
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-747PDF                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
                                          
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 634, Recognizing the importance of the United States-
  Republic of Korea-Japan trilateral relationship to counter 
  North Korean threats and nuclear proliferation, and to ensure 
  regional security and human rights.............................     2
  Amendment in the Nature of a Substitute to H. Res. 634 offered 
    by the Honorable Matt Salmon, a Representative in Congress 
    from the State of Arizona....................................     6
H. Res. 660, Expressing the sense of the House of Representatives 
  to support the territorial integrity of Georgia................    10
H. Res. 728, Supporting human rights, democracy, and the rule of 
  law in Cambodia................................................    17
  Amendment in the Nature of a Substitute to H. Res. 728 offered 
    by the Honorable Alan S. Lowenthal, a Representative in 
    Congress from the State of California........................    22
H. Res. 729, Expressing support for the expeditious consideration 
  and finalization of a new, robust, and long-term Memorandum of 
  Understanding on military assistance to Israel between the 
  United States Government and the Government of Israel..........    28
H. Res. 750, Urging the European Union to designate Hizballah in 
  its entirety as a terrorist organization and increase pressure 
  on it and its members..........................................    32
H. Res. 780, Urging respect for the constitution of the 
  Democratic Republic of the Congo in the democratic transition 
  of power in 2016...............................................    37
  Amendment to H. Res. 780 offered by the Honorable Edward R. 
    Royce, a Representative in Congress from the State of 
    California, and chairman, Committee on Foreign Affairs.......    44
  Amendment to H. Res. 780 offered by the Honorable Christopher 
    H. Smith, a Representative in Congress from the State of New 
    Jersey.......................................................    46
H. Res. 808, Calling on the Government of the Islamic Republic of 
  Iran to release Iranian-Americans Siamak Namazi and his father, 
  Baquer Namazi..................................................    47
H. Res. 810, Expressing the sense of the House of Representatives 
  regarding the life and work of Elie Wiesel in promoting human 
  rights, peace, and Holocaust remembrance.......................    50
  Amendment to H. Res. 810 offered by the Honorable Edward R. 
    Royce........................................................    54
H. Res. 821, Urging the Government of Gabon to respect democratic 
  principles during the August 2016 presidential elections.......    55
  Amendment to H. Res. 821 offered by the Honorable Gregory W. 
    Meeks, a Representative in Congress from the State of New 
    York.........................................................    59
H.R. 4481, To amend the Foreign Assistance Act of 1961 to provide 
  assistance for developing countries to promote quality basic 
  education and to establish the goal of all children in school 
  and learning as an objective of the United States foreign 
  assistance policy, and for other purposes......................    60
  Amendment in the Nature of a Substitute to H.R. 4481 offered by 
    the Honorable Edward R. Royce................................    88
H.R. 5537, To promote internet access in developing countries and 
  update foreign policy toward the internet, and for other 
  purposes.......................................................   110
  Amendment to H.R. 5537 offered by the Honorable Edward R. Royce   126
H.R. 5732, To halt the wholesale slaughter of the Syrian people, 
  encourage a negotiated political settlement, and hold Syrian 
  human rights abusers accountable for their crimes..............   127
  Amendment to H.R. 5732 offered by the Honorable Mark Meadows, a 
    Representative in Congress from the State of North Carolina..   166
  Amendment #53 to H.R. 5732 offered by the Honorable Ileana Ros-
    Lehtinen, a Representative in Congress from the State of 
    Florida......................................................   170
  Amendment #54 to H.R. 5732 offered by the Honorable Ileana Ros-
    Lehtinen.....................................................   171
  Amendment to H.R. 5732 offered by the Honorable Ted S. Yoho, a 
    Representative in Congress from the State of Florida.........   174
H.R. 5094, To contain, reverse, and deter Russian aggression in 
  Ukraine, to assist Ukraine's democratic transition, and for 
  other purposes.................................................   191
  Amendment in the Nature of a Substitute to H.R. 5094 offered by 
    the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................   215
  Amendment to the Amendment in the Nature of a Substitute to 
    H.R. 5094 offered by the Honorable Gerald E. Connolly, a 
    Representative in Congress from the Commonwealth of Virginia.   245

                                APPENDIX

Markup notice....................................................   252
Markup minutes...................................................   253
Markup summary...................................................   255
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............   257
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Prepared statement..................   258
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas: Prepared statement....................   260
The Honorable David A. Trott, a Representative in Congress from 
  the State of Michigan: Prepared statement......................   261


                            VARIOUS MEASURES

                              ----------                              


                        THURSDAY, JULY 14, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:04 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up 13 bipartisan 
measures. And without objection, all members may have 5 days to 
submit statements or extraneous materials on today's business.
    As members were notified yesterday, we intend to consider 
12 of today's 13 bipartisan measures en bloc, and then we will 
consider the Ukraine bill.
    And so without objection, the following items previously 
provided to members and in your packets will be considered en 
bloc and are considered as read.
    House Resolution 634,<greek-l>--I don't think we need to go 
beyond--no. I think we will just do it very efficiently here. 
House Resolution 660; House Resolution 728--but let me 
mention deg. the Salmon amendment 146 in the nature of a 
substitute to House Resolution 634; House Resolution 
660<greek-l>, as I said deg.; House Resolution 728, with the 
Lowenthal amendment 78 in the nature of a substitute; House 
Resolution 729; House Resolution 750; House Resolution 780, 
with Royce amendment 131 and Smith amendment to House 
Resolution 780; House Resolution 808; House Resolution 810, 
with Royce amendment 139; House Resolution 821, with the Meeks 
amendment to House Resolution 821; H.R. 4481, with the Royce 
amendment 130 in the nature of a substitute; H.R. 5537, with a 
Royce amendment to that H.R. 5537; H.R. 5732, with Meadows 
amendment 286, Ros-Lehtinen amendment 53, Ros-Lehtinen 
amendment 54, and the Yoho amendment 104.
    [The information referred to follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Royce. Now, the ranking member is on his way. And 
here he is.
    As a token of my appreciation for the extensive bipartisan 
work that went into today's business, I am going to limit to 
two sentences per measure my comments.
    So first, I want to thank Mr. Salmon for his leadership on 
House Resolution 634. This expresses support for increased 
trilateral cooperation with our Japanese and Korean allies, and 
this support is critical, given North Korea's continued 
belligerence.
    I also want to thank Judge Poe and Mr. Connolly for House 
Resolution 660, which urges the United States to deepen 
cooperation with Georgia, especially through strengthening the 
country's self-defense capabilities.
    Next year, the current memorandum of understanding 
regarding U.S. military assistance to Israel will expire, so I 
want to thank Chairman Emeritus Ros-Lehtinen and Mr. Deutch for 
introducing House Resolution 729, which urges the 
administration to work expeditiously to finalize a new robust 
agreement with our key security partner.
    Few threats to Israel are as great as that posed by the 
Iranian proxy Hezbollah. So I want to recognize the good work 
of Mr. Deutch on House Resolution 750, which urges the European 
Union to designate Hezbollah as a terrorist organization.
    I also want to thank Mr. Smith and Ms. Bass for introducing 
House Resolution 780, urging respect for free and fair 
elections in the Democratic Republic of the Congo. Elections 
that have been delayed by President Kabila, as he seeks to 
avoid a clear constitutional requirement that he step down from 
power.
    House Resolution 821 urges Gabon to hold free and fair 
elections this August. Gabon is not on a good track. Election 
observers, including the National Democratic Institute, report 
the possibility of violence during the election period. If past 
elections are an example, voter lists and vote counting will 
surely be manipulated. The Gabonese people deserve better. 
Unfortunately, with no Presidential term limits in place, this 
could be the low standard.
    We also consider House Resolution 808, which calls on Iran 
to immediately release Iranian Americans Siamak Namazi and his 
father, Baquer Namazi, who are being held hostage by that 
regime in Evin prison. The regime in Tehran has not changed its 
ways, and it continues to threaten the United States, threaten 
our allies, and threaten our citizens.
    Our last resolution recognizes the great life and work of 
the recently deceased activist and historian, Elie Wiesel. It 
urges the continuation of his tremendous efforts to never 
forget and to ensure the tragedies of the Holocaust are never 
repeated.
    We also consider H.R. 4481, the Education for All Act, 
which increases direction and accountability for U.S. efforts 
to improve access to basic education in developing countries, 
particularly for girls and children affected by conflict and 
crisis. And I want to thank Ranking Member Engel and Mr. Smith 
for their good inputs into this measure and have welcomed, in 
particular, the bill's emphasis on girls' access to education 
and the importance of parental involvement in their children's 
schooling.
    Next, we turn to the Digital Global Access Policy Act, 
which will make it U.S. policy to alert the private sector to 
infrastructure projects in developing countries so that 
companies have the option of installing Internet access prior 
to a project's completion. This build-once policy is common 
sense, and it will help more people in developing countries get 
Internet access.
    And lastly, the ongoing atrocities in Syria continue to 
shock the world, so I am proud to be an original cosponsor of 
the Caesar Syrian Civilian Protection Act of 2016, which should 
make it harder for the Assad regime to acquire the tools to 
keep bombing and to keep gassing and to keep killing Syrians.
    And I thank our ranking member, Mr. Engel, who has long 
been at the forefront of Syria policy. And I now recognize the 
ranking member for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
your kind words, and thank you for calling this markup. We are 
going into our summer recess with a bang, taking up 13 measures 
this morning, and I want to thank our members on both sides of 
the aisle for all their hard work.
    I am going to focus first on a bill that the chairman just 
mentioned that I introduced, and it is one of the measures we 
are considering en bloc. Earlier this week, Chairman Royce and 
I introduced the Caesar Syrian Civilian Protection Act.
    One of the most remarkable moments for me as ranking member 
took place 2 years ago when the man known as Caesar visited 
this committee. Our colleagues will remember that day very 
vividly. He was a photographer who worked for the Assad 
Government in Syria who defected to the opposition. He brought 
with him horrific photographic evidence of violence and torture 
and killing that the regime had inflicted upon its own people.
    The need for American leadership to end this crisis has 
never been greater, and my bill would provide the 
administration with even more tools to help end the bloodshed 
and usher in a political transition. This bill would impose new 
sanctions on any parties that continue to do business with the 
Assad regime, but leaves flexibility for the administration so 
that if negotiations go forward, sanctions could be waived on a 
case-by-case basis to keep things moving along.
    The bill also addresses war crimes and crimes against 
humanity that have been so obvious in this conflict by 
facilitating evidence collection and requiring a report to name 
and shame those responsible for human rights violations against 
the Syrian people.
    Lastly, this bill strengthens oversight of our cross-border 
assistance going into Syria and requires a report on the 
potential effectiveness, risks, and requirements of a no-fly 
zone over or safe zone in Syria. I am grateful to the chairman 
for joining me to introduce this bill, and I ask that all 
members support it.
    We have 11 other measures we are taking up en bloc, and I 
am glad to support all of them. Mr. Salmon's resolution, 
underscoring the importance of the U.S.-South Korea-Japan 
trilateral relationship, enhances regional security and holds 
North Korea accountable on its atrocious human rights record. 
Mr. Poe's resolution expresses support for Georgia's 
territorial integrity and condemns Putin's aggression and 
supports the people of Georgia. Mr. Lowenthal's resolution 
supports democracy, human rights, and the rule of law in 
Cambodia, and urges Cambodia's Government, headed by the same 
Prime Minister since 1985, to respect the democratic 
aspirations of its people. Ms. Ros-Lehtinen's measure calling 
for a new long-term memorandum of understanding between the 
United States and Israel demonstrates our steadfastness in our 
support of Israel's ability to defend itself. Mr. Deutch's 
resolution appropriately calls on the European Union to 
designate Hezbollah in its entirety as a terrorist 
organization. Mr. Smith's resolution urges respect for the 
Constitution of the Democratic Republic of the Congo in this 
year's transfer of power. And Chairman Royce and I were in the 
Democratic Republic of the Congo together just a few months 
ago.
    The chairman's measure calling on Iran's leaders to release 
Iranian Americans Siamak Namazi and his father, Baquer Namazi. 
It is outrageous that Iran continues to detain Americans on 
trumped up charges, and we need to keep holding Iran's feet to 
the fire on these issues.
    Another resolution from Mr. Smith urges Gabon's Government 
to respect and uphold democratic principles in the upcoming 
Presidential elections. The Education for All Act, sponsored by 
my neighbor from New York, Nita Lowey, helps ensure that 
expanding access to basic education remains a foreign policy 
priority in developing countries. A resolution from another New 
York colleague, Mr. Israel, honors the life and work of Elie 
Wiesel, a constant example of the sort of encourage needed to 
stand up against hatred and evil.
    And lastly, the chairman's Digital GAP Act, which I am 
happy to cosponsor, promotes our interest in seeing more people 
around the world get online. And I thank the chairman for his 
work on this measure.
    These are all good pieces of legislation I am glad to 
support. Again, I thank everyone for their hard work. I wish 
everyone a good summer break.
    I ask unanimous consent to enter into the record a 
statement of support for H.R. 4481, the Education for All Act, 
from my good friend and ranking member of the Appropriations 
Committee and author of the bill, Mrs. Lowey.
    And I yield back, Mr. Chairman.
    Chairman Royce. Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And let 
me note that I certainly support almost all of the bills that 
are being presented en bloc to us, but I have an absolute deep 
opposition to the bill that is aimed at Georgia and the 
situation in Georgia.
    Again, we have heard over and over again misinformation 
based on an irrational hostility toward Russia. We see this 
over and over again. We are leading the world not to a new cold 
war but the possibility of a real war with Russia; Russia who 
pulled back their military forces from a large chunk of Europe 
peacefully; Russia that has, yes, made some mistakes and 
actually done some things that are worthy of condemning.
    But if we take a look at what happened in Georgia and what 
the situation is, Georgia had a truce with warring factions in 
that part of the world. And what happened is that Georgia 
withdrew from the Soviet Union after the fall of Communism, 
which it had every right to do.
    There are two provinces of Georgia that had been given to 
Georgia by Joseph Stalin, two provinces that did not want to be 
part of Georgia, traditionally, historically, were not 
comfortable with having the Georgians over them: Ossetia and 
Abkhazia. Those two provinces immediately after the withdrawal 
from Russia began--there was an insurgency movement for 
independence for those two provinces, very similar to what we 
saw in Kosovo and Serbia. We sided with the Kosovars, by the 
way, because they had a right of self-determination.
    While the fighting that went on was so bloody that there 
was a truce that was reached with negotiations, Russia involved 
themselves in that truce by agreeing to have observers to that 
agreement. That truce lasted for years, until the United States 
decided that we were going to work with Georgia to bring 
Georgia into NATO. NATO, an armed alliance aimed specifically 
at Russia.
    And so we decided to bring Georgia into NATO, and Russia 
counteracted by offering the people in Ossetia and Abkhazia 
Russian citizenship if they wanted it, which was then countered 
by Georgia in an invasion of those two provinces. We keep 
talking about an aggression by Russia against Georgia. The 
truce that lasted--the truce that was there, the peace that was 
there was violated by Georgia, and what we call the invasion of 
Georgia was a retaliation. The very next day, they did not let 
the Georgians get away--into Georgia.
    And by the way, when the Georgians broke that truce and 
invaded Abkhazia and Ossetia with their army, they killed 
unarmed Russian observers of that truce agreement. Now, I don't 
know what we would do if there are American observers of a 
peace truce and they ended up being murdered by some people 
coming in, unarmed, I might add, coming in to make sure that 
their country took over two provinces like, I might say, just 
exactly like Mr. Eliot and I were very, very active making sure 
that the Serbians didn't get to kill everybody who got in their 
way, wouldn't be part of the greater Serbia after the breakup 
of Yugoslavia.
    And the fact is that Georgia today--we keep talking about 
the Russian aggression on Georgia. The Russian troops that we 
are talking about only went into those two provinces. They are 
now, yes, in those two provinces. And what we should do is make 
an agreement for any withdrawal of those troops by letting 
Ossetia and Abkhazia have a vote on where they want to be. Let 
them have a vote that is taken by the OSCE and down there could 
verify that vote. Let them make that determination.
    What we are doing is a hostile anti-Russian act in the name 
of trying to in some way make up for some act of aggression 
that did not take place with Russia. Russia retaliated against 
someone who had already broken a truce and broken the peace. 
And by the way, I have said that a dozen times here. It is 
always ignored. Condoleezza Rice was right at that table when I 
said exactly the same thing, and instead of denying it, she 
went around it.
    Now, I think that if we want to have peace in the world, we 
have to have a good working relationship with Russia. And 
instead, in an irrational hostility toward Russia, based on the 
fact that Stalin not only did this thing with Ossetia and 
Abkhazia, giving it to Georgia, but he murdered millions of 
people, Ukrainians. Stalin, and during the Soviet time, 
murdered millions of people in these subjugated areas, whether 
the Balkans or whether it is up in Latvia, Estonia, and 
Lithuania, and now those people have a historic grudge. We 
cannot let ourselves be pushed into a war with Russia because 
there is a historic grudge that is going on among those people.
    And if we are going to have peace in the world, we have to 
be sure of what we are doing and be honest about it, and we 
haven't been with Russia dealing with Georgia and dealing with 
the Baltic States, which I have not seen any military 
aggression going on in the Baltic States. Yet, we have B-52 
bombers--B-52 bombers--which are nuclear weapons delivery 
systems flying straight toward Russia and turning around as 
they get over the Baltic States. This is insane.
    What we would do if Russian bombers were headed straight 
into us--I mean, we are not talking about cruising along a 
coastline or cruising along boundary lines, we are talking 
about a war-type maneuver. And we are doing that in Georgia. We 
are doing that in the Baltics. It is ridiculous. And I would 
oppose this particular part of these bills today, but I support 
the rest of them.
    Chairman Royce. So now we go to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. I thank the chair, and I thank the ranking 
member for bringing before the committee H. Res. 660, 
expressing support for the territorial integrity of Georgia. I 
also want to welcome the Ambassador of Georgia to this markup, 
who has joined us today.
    I introduced this resolution with my friend and colleague 
and cochair of the congressional caucus in Georgia, Judge Ted 
Poe, who unfortunately is not with us today.
    This resolution serves as a clear and unequivocal statement 
in support of the sovereign territory of Georgia and reiterates 
the longstanding United States policy to not recognize 
territorial changes effected by force as dictated by the 
Stimson Doctrine, established in 1932--not a new idea, not an 
anti-Putin idea--1932, by then-Secretary of State Henry 
Stimson.
    In Georgia and elsewhere in the region, revisionist talk 
notwithstanding, Russia has committed gross violations of these 
principles by fomenting unrest and aiding separatist movements 
in the countries along its periphery. Foundational, 
multilateral agreements reached for the purpose of maintaining 
a peaceful and stable international order, such as the Helsinki 
Final Act of 1975 and the charter of the United Nations itself, 
have been willfully disregarded by Russia at Vladimir Putin's 
behest.
    This resolution condemns strongly the forceable and illegal 
occupation of Abkhazia and South Ossetia regions in Georgia, 
and calls on Russia to withdraw its troops from those 
territories of another sovereign country. Phony elections with 
troops of a foreign power all over territory should be 
rejected. Those aren't Democratic instruments.
    Mr. Rohrabacher. Would the gentleman yield for a question 
at that point that you just made?
    Mr. Connolly. I would.
    Mr. Rohrabacher. Would you say elections that--would you 
agree that the solution to this would be elections in those 
provinces under the supervision of the OSCE, let those people 
decide?
    Mr. Connolly. I would argue that with Russian troops in 
those territories, no such election could ever be valid. And 
the first order of business, like in the Ukraine and the 
Crimea--which we are going to address separately--they must 
withdraw. You cannot have any confidence in an election when 
Russian troops are all over your territory. An election at the 
point of the gun? What democrat, with a small D, in America 
could ever consent to that? None of us can. None of us should.
    This committee has an opportunity right now with this 
resolution and with the Ukrainian resolution to follow to make 
a clarion statement that can be heard in Moscow. We will be 
unwavering in insisting on the territorial sovereignty of 
sovereign states, whether Putin likes it or not, whether there 
was Soviet history or not. We are where we are today, and we 
don't solve problems in Europe at the point of a gun.
    Mr. Rohrabacher. Would the gentleman yield for another 
question?
    Mr. Connolly. I would happily yield to my friend.
    Mr. Rohrabacher. Do you recognize or do you not recognize 
that the military action--that the initiator of the violence 
that you are condemning was the Georgian army that broke a 
long-lasting truce in that area and thus resulted in the 
occupation forces that you were talking about?
    Mr. Connolly. I would say, reclaiming my time to my friend, 
believe it or not, there are international mechanisms for 
dispute resolution. They do not include the invasion and 
occupation for 8 long years of another country's sovereign 
territory. That is not how we solve disputes.
    Mr. Rohrabacher. The question that I had to you was do you 
recognize----
    Mr. Connolly. I yield again my time to my friend.
    Mr. Rohrabacher [continuing]. That was the actual Georgians 
and not the Russians that initiated that violence?
    Mr. Connolly. Again, that is my friend's view of history, 
and I respect my friend, but there is another point of view 
about that history. And those disputes can be resolved in a 
peaceful manner, but they cannot be resolved so long as there 
are Russian troops occupying territory of another country.
    Certainly, my friend would agree that this territory is 
Georgian. That is not in dispute. And certainly, my friend 
would also agree, there are Russian troops in Georgian 
territory. Now, whether my friend wants to aid and abet Putin 
in his hegemony and occupying and annexing, as he did illegally 
in the Crimea, this territory of Georgia is a different matter.
    But I am urging my colleagues to reject my friend's 
argument and to wholeheartedly endorse this resolution so the 
statement from this committee representing the foreign affairs 
function of the United States Congress is as crystal clear as 
can be so there is no ambiguity.
    With that, I yield back.
    Chairman Royce. And we go now to Mr. Chabot of Ohio.
    Mr. Chabot. I thank the gentleman.
    I would like to commend you, Mr. Chairman and the ranking 
member, for bringing these bills before the committee today. 
These are all important measures, and it is encouraging to see 
the hard work of our colleagues that are being considered 
today.
    And again, the nature of this committee, for the most part, 
on a bipartisan manner, oftentimes the disagreements aren't 
necessarily between Republicans and Democrats; they are 
oftentimes between Republicans and Democrats and one or a few 
members of this committee sometimes. But--and I don't say that 
in a critical way.
    I rise in support of H. Res. 728, a bill that reaffirms the 
U.S. commitment to promoting democracy, human rights, and the 
rule of law in Cambodia. I am an original cosponsor of the 
bill, and I also serve as cochair of the Congressional Cambodia 
Caucus, along with my colleague, Mr. Lowenthal, and I commend 
him for offering this bill that I am talking about.
    In recent months, we have held a number of briefings and 
meetings with the State Department officials, with Cambodian 
Americans, as well as NGOs engaged in democracy building and 
rural law issues in Cambodia. And I have to say, I am very 
concerned about the situation there. Prime Minister Hun Sen 
continues to use bully tactics to sway the elections in his 
favor, and he has obviously been in control, in power in 
Cambodia for a long time. I believe he is the longest, at 
least, strong man serving in all of Asia.
    Opposition leader Sam Rainsy, who I have met with many 
times over the years, both in Cambodia and here, and who Mr. 
Lowenthal and I met with just last month, has real doubts about 
his ability even to return to Cambodia for fear of being in 
prison there on trumped-up charges, or worse. And now the 
deputy opposition leader Kem Sokha has seen charges brought 
against him.
    And there is reason to believe that there will be an 
intensifying crackdown on opposition prior to the election, 
which puts the election itself and its credibility in doubt, 
unfortunately, because Cambodia has the potential of being a 
truly great country and a very important part of the world. The 
people still should be living under much better circumstances 
than they are. It is obviously much better than it was when the 
Khmer Rouge was in power, when the killing fields occurred, and 
a quarter of the population was wiped out on the basis of, for 
example, whether you wore glasses or whether you had an 
education or a whole range of other issues.
    So it is not nearly as bad as it was back then clearly, but 
it should be so much better. And, unfortunately, because of the 
leadership of Hun Sen, the democracy that ought to be taking 
place in that country right now is being to a considerable 
degree thwarted. And if this behavior by Hun Sen and his 
supporters is allowed to continue and a suppression of the 
opposition and coercion of the opposition, in many cases, this 
could deal a serious blow to the democratic process just before 
the upcoming 2018 election.
    So I believe that this legislation will send a strong 
signal that the United States is paying close attention to the 
situation in Cambodia.
    I want to, again, thank Mr. Lowenthal for his leadership on 
this bill and on all issues in Cambodia, and I appreciate his 
cooperation in working on this issue, again, in a bipartisan 
way. So thank you very much.
    And I urge my colleagues to support it and the other 
legislation that we have discussed this morning and will 
discuss, and I yield back my time.
    Chairman Royce. Ted Deutch of Florida.
    Mr. Deutch. Thanks, Mr. Chairman. Thanks to you and Ranking 
Member Engel for, again, working in the spirit of 
bipartisanship that has marked the leadership of this 
committee.
    I am proud to support this good slate of bills today, and I 
would like to thank Ranking Member Engel for his continued 
leadership on Syria with the Caesar Syrian Civilian Protection 
Act. I am also proud to cosponsor Congressman Poe and 
Congressman Connolly's resolution supporting Georgia's 
territorial integrity.
    And I would make a point of offering our thoughts and our 
prayers to Judge Poe as he goes home to get well.
    I also want to thank Chairman Royce and Mr. Connolly for 
introducing H. Res. 808, calling on the Government of Iran to 
release American citizens Siamak and Baquer Namazi. We cannot 
and we must not be silent as Iran continues to unlawfully 
detain American citizens, and we won't stop until the Namazis 
are released. And we also will not stop--will not stop--until 
Bob Levinson returns home to his family. He has now been 
separated from them for 9\1/2\ years.
    Mr. Chairman, I would like to just briefly talk about three 
of the measures before us that I am proud to have introduced. 
First, I would like to thank my friend and Chairman Ileana Ros-
Lehtinen for working with me to introduce H.R. 729, which urges 
the expeditious conclusion of a new memorandum of understanding 
between the United States and Israel. I thank the many members 
of this committee who are also cosponsors. This resolution now 
has over 270 cosponsors, which underscores the deep bipartisan 
support for the U.S.-Israel relationship in this Congress.
    I traveled to Israel last week to assess the current 
security situation, and it is clear that Israel continues to 
face unprecedented threats from Hamas rockets in the south to 
Hezbollah's more than 100,000 rocket arsenal to ISIS 
affiliates, both on the Syrian border and on the Sinai. And it 
is because of the strong support from the United States that 
Israel is able to defend itself against these threats, many of 
which threaten our own strategic interests in the region.
    But the conclusion of this MOU is about more than just 
shared security threats. A new 10-year MOU will serve as the 
backbone of this relationship, and it sends a message to the 
entire world that the United States and Israel stand together. 
The administration has made clear that it wants to conclude the 
MOU as quickly as possible, that it is prepared to offer Israel 
the largest aid package to date. And I heard many encouraging 
things from those in Israel last week about the desire to reach 
an agreement.
    By passing this resolution today, Congress will go on 
record with the overwhelming bipartisan support for the U.S.-
Israel relationship, and I urge my colleagues to support it.
    Second, I urge the committee to support H. Res. 750, which 
calls on the European Union to designate the whole of Hezbollah 
as a terrorist organization. I thank my colleagues, 
Representatives Bilirakis, Israel, Kelly, Lieu, Jeffries, 
Zeldin, and Davis, for joining me in introducing this 
resolution.
    In 2012, Congress passed a resolution that I authored with 
Congressman Kelly calling on the EU to designate Hezbollah. In 
2013, the EU designated the military wing of Hezbollah. Mr. 
Chairman, we all know there is no distinction between the 
military and political wings of a terrorist organization. There 
is only one Hezbollah; it is a terrorist organization. This 
country makes no distinction. Canada makes no distinction. The 
Gulf Cooperation Council and the Arab League make no 
distinction.
    Hezbollah is responsible for terrorist attacks in Europe, 
Latin America, and in Asia. It has well over 100,000 rockets 
pointed at Israel. Its fighters are on the ground in Syria 
doing Iran's dirty work helping the Assad regime slaughter tens 
of thousands of innocent Syrians.
    This organization uses the international financial system 
to fund its worldwide criminal enterprises, which in turn fund 
its terror activities. And I applaud our allies in Europe for 
the work they have done to crack down on Hezbollah's criminal 
activities. That is why they should take the next logical step 
of designating the entirety of Hezbollah as a terrorist 
organization. This designation will allow the EU to work even 
more closely with American authorities to prevent Hezbollah 
from using the international banking system to fund its global 
terror. I urge my colleagues to support this good and timely 
bill.
    And finally, I would like to thank the committee for moving 
swiftly to bring up H. Res. 810, recognizing the life and the 
incredible contributions of Elie Wiesel. It is difficult to 
truly capture the immense positive impact that Elie Wiesel had 
on our world.
    After surviving one of humanity's darkest moments, he 
worked to keep alive the memories and the stories of the 
millions of lives that were lost. He committed himself to 
fighting for the voiceless. He refused to stay silent as 
atrocities transpired against others. He was a source of 
inspiration for millions of people throughout the world, and he 
will forever live in history as one of the greatest and most 
influential and the bravest figures of his time.
    By passing this resolution today, particularly today, after 
the challenging month that our own Nation has had, we honor 
Elie Wiesel. And we recommit ourselves to overcoming even the 
most insurmountable of obstacles. We inspire ourselves to 
greater tolerance and to upholding the principle of never 
again.
    I appreciate it very much, Mr. Chairman. And I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    We go now to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for bringing before the committee my 
resolution, H. Res. 729, which is simple bipartisan common 
sense, and, as my colleague, Congressman Deutch, pointed out, 
has the support of over 270 cosponsors, including almost every 
single member of our committee. It calls upon the 
administration to conclude a new robust and long-term MOU on 
military assistance to Israel.
    I also wanted to express my support for H.R. 5732, the 
Caesar Syrian Civil Protection Act. In 2012, we passed in this 
committee a bill I authored, the Iran Threat Reduction and 
Syria Human Rights Act, which later became law, and part of our 
bill before us builds upon those sanctions. And I have offered 
two amendments that I think add to what we are trying to 
accomplish.
    And later today, Mr. Chairman, as you know, I will convene 
a hearing in our subcommittee on a GAO report that Ted Deutch, 
Ron DeSantis, Gerry Connolly, and I requested on undelivered 
humanitarian assistance into Syria. And I would also like to 
commend my friend, Mark Meadows, for offering his important 
amendment to name and shame the human rights violators in 
Syria. And I yield back.
    Chairman Royce. Mr. Lowenthal, were you seeking time? Yes, 
Alan.
    Mr. Lowenthal. Yes. Thank you, Mr. Chairman, and thank you 
for working with me.
    And thank you, Ranking Member Engel, for bringing up House 
Resolution 728 supporting human rights, democracy, and the rule 
of law in Cambodia.
    You know, Mr. Chair, you have been a leader on human rights 
and the rule of law in Cambodia for years, and I was so pleased 
to work with you to bring this resolution forward.
    I also want to thank Congressman Chabot. You have worked 
with me as the cochair on the Cambodia Caucus. We have brought 
together a bipartisan approach to democracy and the rule of law 
in Cambodia, and I just want to thank you as we bring this 
resolution forward.
    And I also want to thank Chairman Matt Salmon, who has been 
the Republican lead on this resolution. He brought it up in the 
Asia Subcommittee markup last week, where it was passed, and I 
want to thank him for working with us and his leadership on 
this issue. It is very much appreciated.
    Cambodia holds great promise for being one of the few open, 
free, and democratic societies in a region where democracy has 
been on the defensive. However, in recent years, the Cambodian 
Government, presided by the Prime Minister Hun Sen for the past 
31 years, has severely cracked down on the political opposition 
and all forms of dissent.
    This resolution outlines numerous instances of political 
violence since the 2013 national elections, which prolonged Hun 
Sen's grip on power and were marred by allegations of voting 
irregularities. The Cambodian Government has undertaken a 
comprehensive campaign to undermine the political opposition.
    Last year, the Cambodian Government revived a 7-year-old 
defamation charge against opposition leader Sam Rainsy, 
expelling him from the Parliament and forcing him into self-
imposed exile. Since then, the government has sought to arrest 
Kem Sokha, the deputy opposition leader who remains under 
effective house arrest.
    And just this last weekend, prominent political activist 
and outspoken critic of the government, Kem Ley, was brutally 
gunned down in the streets of Phnom Penh. The true motive of 
his killing is not yet known, but the current unrest in 
Cambodia and the long history of political assassinations have 
led many to suspect the government's involvement in his murder.
    Just yesterday, I spoke with Mr. Kem Sokha, the deputy 
opposition leader. He told me now that he not only fears arrest 
by the government but that now he truly fears for his life. The 
deteriorating political situation in Cambodia demands action 
from the United States. That is why it is so important that we 
pass this resolution and show that Congress stands with the 
people of Cambodia and reaffirms our commitment to democracy, 
to human rights, and the rule of law in Cambodia.
    By passing House Resolution 728 today, we will send an 
important signal to the Cambodian Government that political 
violence of any kind will not be tolerated and that the 
Cambodian people must be able to enjoy freedom of speech and 
freedom to choose their own leaders.
    Again, I urge my colleagues to support the resolution and 
thank Chairman----
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Lowenthal. Yes.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Lowenthal. Yes, I will.
    Mr. Rohrabacher. Let me just commend Congressman Lowenthal 
for his unstopping energy that he puts into this effort to 
bring peace and democracy to Cambodia.
    Over the years, I have tried to be supportive of his 
efforts. And I have been to Cambodia a number of times. It is 
time for Hun Sen to go. There was an argument that Hun Sen 
helped get rid of Pol Pot, who was a monster who murdered 
millions of his own people. Whatever happened in the past does 
not justify Hun Sen's continuing iron-fisted grip. And this is 
crony capitalism or crony communism, however you describe it in 
Cambodia. And we are going to have--they deserve our support 
for creating a more democratic society there.
    And thank you, Mr. Lowenthal, for all you are doing in this 
regard.
    Mr. Lowenthal. Thank you.
    Chairman Royce. I will just make the observation that we 
are going to have business on the floor at 10:05, so if any of 
the members here could submit their statements for the record, 
that would be very helpful.
    We are going to go to Mr. Weber of Texas.
    Mr. Weber. I thank the gentleman, thank the chairman.
    And I am going to speak on 660. I want to thank my good 
friend, Congressman Poe from Texas, for his excellent work on 
the resolution. Seems there has been some discussion about it. 
I will put my good friend, Mr. Connolly from Virginia, down as 
a ``lean yes'' and our good friend from California as an 
``undecided.''
    I do want to commend the work that Congressman Poe and Mr. 
Connolly have done on this bill. I want to commend the work of 
the chairman and my colleagues on the full slate of legislation 
being marked up today.
    From the prompting of the EU to designate Hezbollah a 
terrorist organization, to the honoring of a true statesman, as 
many have already alluded to, Mr. Elie Wiesel, to the call for 
the release of yet more Iranian Americans illegally jailed, we 
have a block of legislation that is both timely and significant 
in its reach. And I appreciate the bipartisan work done on this 
committee.
    Mr. Chairman, in 2008, Russia signed a cease-fire agreement 
with Georgia committing to, among other things, the withdrawal 
of their military troops to prewar position. Eight years later, 
they have instead created an entire military base and continued 
to expand their territory within the sovereign nation of 
Georgia. In fact, reports suggest that Russian military and 
special forces invaded a village within the District of Guria 
where they created roads through the gardens of 48 local 
residents, divided the village cemetery in two, and destroyed 
the stadium along with thousands of apple trees. Additionally, 
Russian soldiers have kidnapped a number of Georgian citizens 
near the administrative border line separating South Ossetia 
and the rest of Georgia, and the detentions are on the rise.
    Russia is refusing to honor their agreement. Instead, they 
are signaling their desire to reclaim Georgia by the blatant 
attempt to co-op the upcoming October elections, as Mr. 
Connolly alluded to at the point of a gun perhaps, also via 
propaganda and the influence of Russian oligarch and 
billionaire Bidzina Ivanishvili. Worth at least $5 billion, Mr. 
Ivanishvili was recently exposed by the Panama Papers for his 
offshore financial deals, his illicit arms trades, and his 
continued efforts to control the Georgian Government behind the 
scenes.
    There is no question that Moscow is mounting an attack via 
Mr. Ivanishvili to acquire full control over Georgia once 
again. New pro-Russian political parties, blocks, and 
coalitions are being created almost daily thanks to the funding 
by Mr. Ivanishvili and Russian intelligence services. Pro-
Russian propaganda has taken control of the television space in 
Georgia with the only pro-Western TV station, Rustavi 2, now 
facing the threat of a shutdown, all of these efforts 
personally organized and funded by Mr. Ivanishvili.
    Mr. Chairman, as evidenced by other resolutions on today's 
agenda, including those related to the countries of Cambodia, 
the Democratic Republic of Congo, and Gabon, this committee 
takes free elections very seriously, despite the recent 
revelation that our own Department of State used hundreds of 
thousands of dollars in taxpayers' funds to support election 
campaign efforts in opposition to Israeli Prime Minister 
Benjamin Netanyahu, the leader of one of our strongest allies 
in the world. That thwarts the very essence of a governing 
democracy. It goes against the very founding of our principles.
    Mr. Chairman, we must take a stand for the national 
sovereignty of our allies. We must push Russia to stand by 
their words and remove their troops from Georgia. We must 
provide a better example to those around the world by demanding 
free and fair elections.
    And in standing by those principles, in word indeed, I 
wholeheartedly support Congressman Poe's legislation. I thank 
my friend from Virginia for his part in it, and I also support 
the full slate of legislation today. I urge passage.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. I thank the gentleman.
    I would remind our members we still have the Ukraine bill 
that we need to debate, and so if we could be succinct in our 
comments.
    Mr. Cicilline is next from Rhode Island.
    Mr. Cicilline. With that request, Mr. Chairman, I will 
submit my comments for the record and just say thank you to you 
and to Ranking Member Engel for, again, conducting this markup 
in a bipartisan way. I think we should all be very proud of the 
resolutions that are before the committee today, which I think 
reflect our commitment to important allies around the world and 
our commitment to human rights, democracy, and rule of law, and 
international stability and peace.
    And with that, I will submit this, and thank you and yield 
back.
    Chairman Royce. Thank you, Mr. Cicilline. I deeply 
appreciate you submitting that for the record.
    We now go to Mr. Smith of New Jersey.
    Mr. Smith. Thank you, Mr. Chairman. And I will submit most 
of my comments for the record.
    Just very briefly to speak on the Democratic Republic of 
the Congo, which I think members realize faces a perilous 
course as elections scheduled for November look increasingly 
unlikely. The mandate for President Joseph Kabila and his 
country's national legislature will expire in late December and 
unless there is some way to either speed up the process for an 
acceptable election or find a way to create an acceptable 
transition in government to manage the election process, many 
of us, the State Department included, fear that that country 
could descend into chaos.
    I have met with Kabila's Special Envoy recently who tried 
to explain why, in the 5 years since the last election, the 
government couldn't make the necessary preparations to hold 
this election on time. His reasons did not justify the delays 
that have put his country on the brink of a constitutional 
crisis. That is why we have introduced H. Res. 780, to press 
the Kabila government to avoid a situation in which he remains 
in power indefinitely, contrary to the intent of his country's 
Constitution and the will of the people.
    I also would point out that backing the resolution is a 
group of the Congolese diaspora, including an opposition party 
member, religious leaders, and civic society groups. Because H. 
Res. 780, this coalition is calling for a process by which 
Kabila would appoint a Prime Minister under his country's 
emergency provisions to take over temporarily to hold the 
elections that will be considered acceptable to the Congolese 
people.
    Let me also point out the resolution on Gabon. H. Res. 821 
calls for an orderly peaceful, free, and fair Presidential 
election in that country. The 2009 elections were plagued with 
election irregularities and provoked destruction 
demonstrations, and a repeat of such a significantly flawed 
process could endanger the stability of that country. Our 
championing of a successful election for free, fair, and 
violence-free election puts governments on notice that we mean 
what we say about democracy, we will be watching and watching 
carefully.
    And finally, on H. Res. 660, about 10 days ago, I was in 
Tbilisi, Georgia. Eight years ago, I was there about 10 days 
after the invasion by the Russian troops, and I can tell you 
the scars are real. One hundred ninety-two thousand people were 
displaced at the time. Several hundred were killed. I remember 
I had some of my own constituents trapped in South Ossetia. We 
got them out, thankfully, after weeks of negotiations and many 
other children, American children, who were in Abkhazia as 
well. But this is a festering sore, and the Russians took South 
Ossetia and Abkhazia by force. They violated the Helsinki Final 
Act and follow-on agreements about territorial integrity.
    And I was at a checkpoint just 10 days ago, on the Georgia-
South Ossetia border, and it was like the old Soviet Union. The 
Russian troops came to the checkpoint. They had made people 
wait upwards of 12 hours to cross over with food stuffs to get 
to people on the other side, and out came a Russian guard with 
a camera filming me and a few other Members who were standing 
there. It was the old Soviet reprise that we saw for so many 
years. The tensions are thick. It is important that we send 
this message.
    So thank you, Ted Poe and Mr. Connolly, for the resolution. 
Those two areas, South Ossetia and Abkhazia, were taken by 
force. Yes, there was perhaps a provocation of sorts, but 
nothing that caused the counteraction by the Russians in 
invasion and, again, it caused large losses of life and 
displacement of so many people.
    I thank the chairman. I yield back.
    Chairman Royce. Mr. Alan Grayson.
    Mr. Grayson. Thank you, Mr. Chairman.
    When I look at these resolutions regarding Abkhazia, South 
Ossetia, the bill regarding the Ukraine and the Crimea, what is 
missing to me is a sense of respect for the wishes of the 
people involved. Too often we find ourselves viewing those 
people as pawns, as puppets, and we view this as some kind of 
colossal battle between one government and another without any 
regard for what the people involved actually want.
    As I indicated the last time we had a bill involving the 
Ukraine, the people of the Crimea voted overwhelmingly time and 
time again for pro-Russian parties. When they were part of the 
Ukraine, that is what they did. That reflected their will. 
There is no indication at this point, whether or not Russian 
troops are there, that most people in the Crimea would want to 
rejoin the Ukraine. Quite the contrary, the indication is that 
they would not, that they were not comfortable being part of 
that country when they were part of it, and they are not 
comfortable now with the idea or notion that they would be 
forced to rejoin the Ukraine.
    With regard to Abkhazia, with regard to South Ossetia, both 
of these areas held elections within the past 2 years. There is 
no evidence that has been provided that these elections were 
somehow twisted or perverted by the presence of foreign troops. 
In fact, from the looks of things, they had multicandidate 
elections. The elections looked to be fair. They certainly were 
vigorously contested. And they reached results that seemed to 
reflect the local priorities. The turnout was actually very 
high in both cases.
    So one has to wonder exactly what we think we are 
accomplishing by choosing sides against the will of the people 
in places like Abkhazia, in places like South Ossetia, in 
places like Crimea and so on.
    One of the great battles of the later part of the 20th 
century was the battle for decolonization. One of the great 
battles that I see for the early part of this century is the 
battle against internal colonization, taking large groups of 
people, that sometimes number in the millions, and keeping them 
trapped within a country they don't feel a part of against 
their will. It is no longer true of the Soviet Union. It still 
is true of Iran. Frankly, if South Ossetia and Abkhazia were 
returned to Georgia, it would be true of those places as well.
    We show all too much regard for the concept of territorial 
integrity without any regard for the concept of self-
determination and the concept that people have the right to be 
part of a country that they want to be part of. It is that 
simple. And too often we find large groups of people who feel 
trapped in the wrong country.
    I agree that these matters should always be resolved 
without force. I think it is regrettable whenever any shot is 
fired over an issue of self-determination. But what we need, I 
think, more than anything else right now in these situations, 
whether it is Abkhazia, South Ossetia, Crimea, or anywhere 
else, we need some kind of peaceful resolution that reflects 
the popular will. And that is something that was never provided 
to the people of Crimea, never provided to people of Abkhazia, 
and South Ossetia, by the governments that purported to be 
governments covering those areas, whether we are talking about 
Georgia, Ukraine, or otherwise.
    We need to have some kind of consensus that it is all 
right, it is okay for a territory that is part of a government 
to separate and to do so through peaceful means, as we saw an 
attempt to do in Scotland recently and as we will see time and 
time again in Western democracies and other democracies all 
around the world. Yes, these things should be done through 
democratic means, but there must be a mechanism to do them.
    I yield back.
    Chairman Royce. We are going to go to Mr. Meadows for 1 
minute and then 1 minute to Mr. Sherman, but then we are going 
to have to go to the vote.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    My amendment basically works in very close harmony with the 
gentlewoman from Florida, Ileana Ros-Lehtinen's, fine work on 
the Syrian issue and to make actually the human rights abusers 
directly accountable for their crime. And so it puts in 
reporting language of 120 days for the President to submit a 
report on the 47 individuals that actually are either 
responsible or complicit in the human rights violation in 
Syria. So I would like to thank her, the Syrian Emergency Task 
Force, and certainly the author of the underlying bill for 
their work and leadership.
    And with that, I will yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Meadows.
    We will now go to Mr. Sherman of California.
    Mr. Sherman. I will associate myself with Mr. Lowenthal's 
comments on Cambodia. And while I will vote for the Georgia 
resolution, we should recognize that we often support not 
territorial integrity but self-determination, and we are often 
somewhat inconsistent on this. We supported the breakup of the 
Soviet Union, Yugoslavia, and the division of the Republic of 
Serbia. We oppose the division of Croatia, Georgia, and the 
Ukraine.
    In each case, we have taken the anti-Russian position. We 
should at least try to be as calm as possible with Russia, to 
recognize that we are not always consistent and absolute in our 
position, and that we should avoid pushing things to the very 
edge where we put military forces right up against a border 
when that is unnecessary. And I look forward to working with 
the members of this committee, even Mr. Rohrabacher, for a 
calmer relationship with Russia.
    I yield back.
    Chairman Royce. I thank the gentleman.
    Hearing no further requests for recognition, the question 
occurs on items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to.
    And without objection, the measures considered en bloc are 
ordered favorably reported as amended. Staff is directed to 
make any technical and conforming changes, and the Chair is 
authorized to seek House consideration under suspension of the 
rules.
    The Chair now calls up for consideration H.R. 5094, the 
Stability and Democracy for Ukraine Act. Without objection, 
Engel amendment 284 in the nature of a substitute will be 
considered base text, is considered read, and is open for 
amendment at any point.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. And I want to thank the ranking member for 
authoring this important measure which tightens sanctions on 
Moscow, especially related to the forcible annexation of Crimea 
and includes measures to counter sanctions evasion.
    I now recognize the ranking member for his remarks on the 
bill.
    Mr. Engel. Thank you, again, Mr. Chairman.
    I am grateful that we are taking up the STAND for Ukraine 
Act, which I introduced in April with Mr. Kinzinger, a former 
member of this committee. The legislation underscores America's 
support for Ukraine's right to defend itself. Parts of Ukraine, 
as we know, are illegally occupied, so our aim with this bill 
is rooted in America's nonrecognition policy during the 50-year 
Soviet occupation of Estonia, Latvia, and Lithuania.
    This bill links any sanctions relief to Russia fulfilling 
its obligations under the Minsk Agreement as well as making 
Crimea-related sanctions permanent so long as the Russian 
occupation there continues. It also tightens sanctions 
enforcement with a new anti-evasion framework and requires 
regular reports on banks illegally controlling Ukrainian 
assets, particularly Russian banks in Crimea.
    Additionally, this bill tries to drive new private sector 
investments in Ukraine, clamps down on Russia buying defense 
equipment or services from our NATO allies, targets human 
rights abuses in Russian-occupied areas, and calls for a 
strategy to push back against Russian propaganda.
    I want to thank Mr. Connolly of Virginia for offering an 
amendment, making clear that Crimea-related sanctions should 
not be dropped until Ukrainian sovereignty of Crimea has been 
restored. Let me also thank the gentleman for his tireless work 
on this issue. Thank you, Mr. Connolly. He has been laser-
focused on it since the first day of this crisis and this 
measure makes this bill stronger.
    We need to send a message to the people of Ukraine that we 
stand with them and to Putin that his aggression and bullying 
won't go unanswered. I ask that all members support this bill, 
and I yield back.
    Chairman Royce. On the amendment referenced by Mr. Engel 
that has not yet been offered but will be, and before I yield 
the chair or turn over the chair to Mr. Smith, I did want to 
speak to this issue. And I think it is an issue we should all 
think on before we adopt this amendment, and I will tell you 
why.
    First, I want to thank the gentleman from Virginia for 
offering the amendment, although I have to oppose it, because I 
admire his long-established commitment to Ukraine and 
especially to Crimea. However, as we are all aware, the 
provision in the ranking member's bill that that amendment 
would strike allows the President of the United States to lift 
the existing sanctions related to Crimea if there is a 
resolution of the region's status that--and here is the key 
concept in the underlying bill--that a democratically-elected 
Government of Ukraine judges to be satisfactory and that has 
been reached through an internationally supervised process. In 
other words, the people of Ukraine would make that decision.
    My concern is that to strike that language to prevent a 
situation from arising in which the Ukrainian Government 
concludes an agreement that it believes is good for the nation, 
but the U.S. nevertheless says, that is not good enough for us, 
we would have in effect be claiming to be more Ukrainian than 
the Ukrainians. This amendment would potentially bind the U.S. 
to a position that the Ukrainian Government itself might have 
left behind.
    As the gentleman is aware, the central goal of U.S. policy 
toward Ukraine is to allow a sovereign and democratic Ukraine 
to choose its own destiny, just like the United States. So I 
believe that should continue to be our goal. I think the 
underlying bill states it very effectively. So we should be 
prepared to support Ukrainian's decisions of what is best for 
Ukrainians.
    Therefore, I must oppose the amendment. I just don't see 
the sense of offering it in these circumstances, given how 
strong the underlying bill already is. But with that----
    Mr. Connolly. Would the chairman yield?
    Chairman Royce. You will have your own time. I have to go 
to the floor right now----
    Mr. Connolly. The chairman has preemptively attacked an 
amendment.
    Chairman Royce. And if you withdraw the amendment, I will 
withdraw my preemptive attack.
    Mr. Connolly. But I kind of wanted to give my colleagues an 
opportunity for the counterargument.
    Chairman Royce. I would love to have that argument, but I 
cannot have it today, I can't have it at this moment. But I 
will yield you 5 minutes.
    Mr. Connolly. I will move up. I have an amendment at the 
desk. I am sorry. Are you recognizing me to speak?
    Chairman Royce. I am recognizing you to speak. I was 
recognizing you to speak on the underlying measure. But 
inasmuch as I discussed your amendment, feel free to segue into 
that amendment.
    Mr. Connolly. Thank you so much.
    First of all, I want to thank Mr. Engel for bringing this 
resolution up, and I want to thank the chairman for bringing 
the resolution up.
    The chairman has given a point of view. And I listened 
carefully to my friend Mr. Weber about Georgia and the Ukraine. 
I have consistently insisted, since the illegal invasion and 
annexation of the Crimea, that we must be clear as a bell, no 
ambiguity, no other conditionality.
    My friend Mr. Chabot and I introduced a bill this committee 
supported, the Crimea Annexation Non-Recognition Act. This 
isn't a Democratic or Republican issue.
    Here is my concern, and I hope it is yours. That language 
looks innocent. My amendment would delete that language and 
leave it with silence about what the Ukrainian Government 
decides to do. If the Ukrainian Government decides tomorrow, 
``You know what, we don't need the Crimea, we are going to give 
it up,'' obviously, a President is going to come to Congress 
saying, ``Well, that is their decision,'' and we would have to 
consider it. But why offer it on a plate by the U.S. Congress?
    I have worked with my friend Mike Turner, Republican from 
Ohio. He heads up the NATO Parliamentary Assembly. I head up 
the U.S. delegation. We have worked together to make sure there 
is no dilution of language on this subject in NATO, and there 
have been attempts.
    This is, without intention, I fear, to be construed as, 
``Well, if you don't get out of Crimea, how about you negotiate 
something, and we will call it a day?'' We don't want to do 
that.
    Now, contrary to what my friends have heard from Mr. 
Grayson, there is terrible human rights abuse going on by the 
Russians in Crimea today against Tartars, against political 
dissenters, against anybody with a different political point of 
view. As Mr. Weber indicated, they dominate media, and the 
propaganda and the harassment are quite considerable. And life 
for the indigenous Crimean population is very difficult. People 
who have family members there report that.
    I am delighted to have the support of the author of this 
resolution, Mr. Engel, for this amendment. And I know a number 
of my colleagues also heard from the Ukrainian Congress in 
support of this amendment as well.
    This isn't a Democrat or Republican issue. This isn't 
something designed in any way to embarrass the leadership of 
this committee. This is a sincerely felt policy position so 
that we speak with one voice and as clearly as we can, just as 
we just did in Georgia, on the Ukraine.
    I was in the Ukraine recently. They need our support. They 
need to know in Kiev that we are unwavering so that they do 
what they have to do. If they ever change their minds, they are 
always free to come back. We don't need a provision to invite 
it. What we need is a clear, unequivocal statement that the 
settlement about the Crimea is a Ukrainian issue, not an issue 
for Russia and the rest of the world.
    With that, I yield back.
    Mr. Smith [presiding]. The Chair recognizes Mr. 
Rohrabacher.
    Mr. Rohrabacher. Well, let me just ask my colleague from 
Virginia, Mr. Connolly, do you sense that we actually agree on 
self-determination, or do we not? Meaning, if, indeed, there 
were no Russian troops involved and no military action taking 
place, that the people, as we heard from Mr. Grayson, the 
people do have a fundamental right, even if they are a part of 
another country, they are on a periphery of a country and want 
to be independent or part of another nation, that they have a 
right by majority to do so. Is that correct? And it is the 
occupation, it is the introduction of Russian troops at 
Abkhazia.
    Mr. Connolly. Yeah, that is like, other than the 
unpleasantness, how did you like the play at Ford's Theatre?
    Mr. Rohrabacher. I yield time to respond.
    Mr. Connolly. I thank my friend.
    No, we don't agree, because you are assuming, even if 
Russian troops got out--a big if--which Mr. Grayson apologizes 
for that, he dismisses that, I don't know how any reasonable 
person can say there can be a free and fair election with 
Russian troops over all the territory.
    Mr. Rohrabacher. We did.
    Mr. Connolly. But with respect to your question.
    Mr. Rohrabacher. Yes.
    Mr. Connolly. It is for Ukraine to make that decision.
    Mr. Rohrabacher. Yes.
    Mr. Connolly. Otherwise, I would say to my friend, then you 
would have to say those parts of Spain that have an inclination 
to secede, we ought to have an international election and let 
them do it, irrespective of the wishes of the Spanish 
Government in Madrid. That is interference in another sovereign 
state's affairs. It is up to the Ukraine, I would say to my 
friend from California, to decide on the disposition of its own 
territory, not up to us and not up to Russia.
    Mr. Rohrabacher. Yeah. Then you would suggest that we 
should be part of the British Empire. Is that correct? After 
all, we did forcefully declare our independence, and I guess 
you do, then, renounce when in the course of human events that 
it comes time to separate the bonds between, that doesn't--go 
right ahead. I yield.
    Mr. Connolly. All right. No, the proper analogy actually is 
the American Civil War, Mr. Rohrabacher. It was not up to the 
United Kingdom and France to recognize Confederate 
independence. It was up to the United States of America to 
decide on that, and we did.
    Mr. Rohrabacher. Reclaiming my time. Let me just note that 
had the South, during the Civil War, permitted women and 
permitted slaves and not had slavery, and it was not a slave 
situation, where if they had been permitted to vote, I doubt if 
they would have voted for secession, but had they done so and 
the South didn't have slavery, well, then, that would have been 
fine for them to secede, if we do believe in the Declaration of 
Independence.
    Did you oppose our efforts in Kosovo, Mr. Connolly?
    Mr. Connolly. I opposed secession, certainly, in the United 
States history.
    Mr. Rohrabacher. You are being consistent.
    Let me note, I don't believe there is that big a difference 
between most of the members here and some of these issues that 
we are raising, because whether or not what the Russian action 
was at this point, at this point, whether or not somebody else 
committed, initiated a violence that ended up with the current 
situation, I think that what unites Americans is that we do 
believe that people have a right, through the ballot box, to 
determine their destiny. And you would suggest that they have 
to be part of a bigger entity, and that bigger entity has to 
agree to it. I think that is where we disagree.
    But I think the right of people to determine through the 
ballot box rather than bullet box is the way we should be 
supporting and ending some of these conflicts. And I certainly 
agree with that in the Ukraine, and I certainly agree with that 
in Georgia, and all of these different things that we are 
talking about.
    So I do not interpret my own position as being pro-Russian 
in some of these things. I really believe that local people 
have a right. I supported Kosovars. I supported the Scots. Even 
if they didn't get their vote, I would have appreciated it. And 
the Catalonians, if they want to be free from the rest of 
Spain. People have a right to their self-determination. I think 
that is what our Declaration of Independence was all about. And 
just a thought. I thought I would throw that in the air.
    Thank you very much, Mr. Connolly, for that exchange.
    Mr. Smith. Mr. Sherman.
    Mr. Sherman. I think both gentlemen are right. We have been 
on the side of self-determination. We have been on the side of 
territorial integrity. We were born in a war of secession. We 
were baptized in a great civil war against secession. We tore 
asunder the British Empire in 1776 and prevented our Nation 
from being torn asunder fourscore and 7 years later.
    I don't agree with Mr. Rohrabacher that just any group for 
any reason can say, ``Give us a vote and we get our 
independence.'' That is only true if David Cameron is your 
Prime Minister.
    The fact is, the San Fernando Valley would make an 
excellent country. I know it would have outstanding leadership. 
And, yet, we weren't even given a free vote to secede from the 
City of Los Angeles, let alone from the United States.
    The fact is, these questions are answered in our 
Declaration of Independence, which says you shouldn't create 
your own country just because, well, that is how you feel that 
day or you think you would do a little better, only when you 
can lay out to the world truly extraordinary oppression from 
the State that is governing you and truly extraordinary reasons 
for your independence.
    But getting back to the bill, I think this is a very strong 
pro-Ukrainian bill. I do not think that we need an additional 
amendment to be more pro-Ukraine. I think the gentleman from 
Virginia is right, though, in saying that this is a decision to 
be made in Kiev by Ukrainians. And if Ukraine, as the bill 
states, if Ukraine negotiates a settlement with Russia for 
whatever level of autonomy or whatever relationship Crimea will 
have to Russia or the Ukraine, that that is something that we 
ought to be prepared to accept.
    Now, the gentleman from Virginia points out that we 
shouldn't invite that, but the fact is, we should invite the 
Ukraine to do whatever it considers best for the people of the 
Ukraine and the Crimea.
    Mr. Connolly. Would my friend yield?
    Mr. Sherman. And to tie the President's hands and say that 
we have to continue these sanctions, even if a democratically-
elected Ukrainian Government in Kiev is asking us to remove the 
sanctions, I think makes the bill more unwieldy, more 
permanent, more locked in, more written in stone than it needs 
to be.
    I will make one point, then I will yield to the gentleman 
from Virginia, and that is he is correct in pointing out that 
human rights in the Crimea are not being respected. However, 
there were times in Ukrainian history where they did not have a 
democratic government, where there were levels of oppression 
for all of the people of Ukraine, including those of the 
Crimea, and particular concerns of the Russian-speaking 
majority in the Crimea. So I don't think we can say that Kiev 
always provides the highest level of human rights while Moscow 
always imposes oppression.
    But the Crimea was made part of the Ukraine, and we should 
be following the Ukraine in whether to remove sanctions.
    I yield to the gentleman from Virginia.
    Mr. Connolly. I thank my friend. I find it interesting that 
we are concerned about ``tying the hands of the President.'' 
There are so many other examples where we have no compunction 
about doing that, including my friend from California.
    Mr. Sherman. You are absolutely correct.
    Mr. Connolly. But I will simply point out, there is nothing 
in my amendment, which has yet to be introduced, that ties 
anybody's hands. It simply removes this provision and is silent 
about it. It is a false argument to say we tie the President's 
hands. We most certainly do not. I am not adding language. We 
are subtracting language to be clear.
    Secondly, the language here----
    Mr. Sherman. Reclaiming my time. Reclaiming my time.
    Mr. Connolly. Thanks for the courtesy.
    Mr. Sherman. Every time a member of this committee tries to 
strike language that provides for a Presidential waiver, the 
response is that we are tying the President's hands. So the 
fact that you are striking language does not mean that you are 
not making the bill more binding, shifting, and depriving the 
President of an ability to act quickly. Sometimes we should and 
sometimes we should not provide such waivers.
    And I will yield to you whatever remaining time I have. My 
time has expired.
    Mr. Smith. The time of the gentleman has expired.
    The Chair recognizes Chairman Chabot.
    Mr. Chabot. Mr. Chairman, if I could ask your advice at 
this point in time. Mr. Connolly has not yet actually 
introduced the amendment. So for other members who may want to 
speak, and I do want to speak on this, I would be happy to wait 
until the amendment is introduced, or otherwise, we can all 
take two bites of the apple.
    Mr. Smith. Once the amendment has been introduced, 
obviously, we could have a debate on that.
    Mr. Chabot. Can I ask, are there any other members that 
wish to speak prior to the amendment being offered? Because I 
will wait.
    Mr. Smith. On the underlying bill, or whatever you want to 
speak on.
    Mr. Chabot. This was sort of like a parliamentary inquiry. 
So you have answered my parliamentary inquiry. Thank you.
    Mr. Smith. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. I would like to claim 
time, and I would like to yield it to my colleague from 
Virginia.
    Mr. Connolly. I thank the gentleman from California.
    I will point out to my colleagues, unlike what Mr. Sherman 
characterized, let's read the language here. This language 
doesn't say, ``Well, only if Ukraine initiates something and 
chooses a process, well, then, of course, we would respect 
it.'' It actually says the status of the Crimea has been 
resolved through an internationally supervised process to the 
satisfaction of the Ukrainian Government. That can be construed 
as an imposed settlement. So somebody else decides, whether 
Ukraine likes it or not, that this is good for them, this is 
the best we can get, and they have to accept it.
    The other point I would make, which really troubles me 
about Mr. Sherman's argument, I was just in the Ukraine. They 
have a democratic government. They had a revolution to get it. 
They overthrew the previous government because it was corrupt, 
it was a kleptocracy. They are struggling. They need our 
support.
    I went with my friend Peter Roskam, a Republican, the head 
of the House Democracy Project, to go to the Ukraine to show 
support for what they are trying to do. This would dishearten 
them, I can assure you. This is not a signal of support. This 
is a retreat. It may not be intended as such, but it will be 
construed as such. We can be silent by eliminating this and not 
make the point.
    I am glad to have Republican support for the amendment yet 
to be introduced. I am disheartened that one of my fellow 
Democrats feels otherwise. But I really do believe that the 
purpose here is to speak with one clear voice: You must 
withdraw from your illegal annexation and occupation of the 
Crimea.
    And if the President ever wants, whatever President, to 
come to Congress with a different idea, there is nothing in 
here that precludes that, and there is nothing in here to 
preclude our consideration of it. We are silent about it. That 
is all I am doing, so that we were speaking clearly on this 
policy.
    If Mr. Sherman wants me to yield, I do--with Mr. 
Lowenthal's permission.
    Mr. Sherman. Just one point. Yes, the Ukrainian Government 
is democratic today. I was just making the point that 
sovereignty does not depend upon democracy. That is to say, 
Crimea was part of the Ukraine when they had a bad government. 
Crimea was part of the Ukraine when the Ukraine was part of the 
Soviet Union. Crimea is part of the Ukraine today. And I yield 
back to the gentleman.
    Mr. Connolly. I thank my friend. And I yield back to Mr. 
Lowenthal.
    Mr. Smith. Do you yield back?
    Mr. Lowenthal. And I yield back.
    Mr. Smith. Okay.
    Any other members like to be heard on the underlying bill?
    Having heard no further request to speak on the bill, are 
there any amendments to the bill?
    Mr. Connolly. Mr. Chairman, I have an amendment at the 
desk.
    Mr. Smith. The clerk will report the bill.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 5094 offered by Mr. Connolly of Virginia. 
Page 5, line 15, strike ``that'' and all that follows through 
``Ukraine's'' on line 16 and insert ``that Ukraine's.'' Page 5, 
line 17, strike ``; or'' and insert a period. Page 5, strike 
lines 18 through 21.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. The Chair recognizes the gentleman from Virginia 
for 5 minutes to speak on his amendment.
    Mr. Connolly. I thank my friend.
    I think I have made it as clear as a bell what we are 
trying to do here. It is simple, it is uncomplicated, and it is 
designed to show solidarity with our democratic friends 
struggling in the Ukraine.
    The Ukraine is losing soldiers every single day. So far, 
6,000 casualties--6,000 casualties--to Russian aggression. We 
must do everything in our power to reverse what they are doing 
and to make it clear that is not how disputes are settled in 
modern day Europe.
    And with that, I yield to my good friend, Mr. Chabot from 
Ohio.
    Mr. Chabot. I thank the gentleman for yielding.
    It is rare that I disagree with my chairman on this 
committee. I have been working with Mr. Connolly on issues 
related to Crimea for some time now. I thank him for his 
leadership on this.
    Our position with respect to Russia invading Ukraine and 
Crimea should be crystal clear, the world's position should be 
crystal clear, and that is that the Russians should get the 
hell out of Crimea, as simple as that. I think this language 
just muddies up our position and the waters, and it ought to be 
as clear as that, Russian has to get out.
    To allow additional pressure, basically, to be put on the 
Ukrainian Government, which I think this ultimately would do--
Russia is a bully, we know that. They have threatened to cut 
off energy. They have invaded not just Crimea, but the eastern 
border of Ukraine, and they are continuing in that. It is an 
off-and-on, literally, military battle going on. The 
Ukrainians, unfortunately, are outgunned by the Russians over 
and over again. And I think we have been remiss, this 
administration's policies have been remiss in providing 
additional necessary arms to allow the Ukrainians to defend 
themselves.
    But we ought to be, as I say, crystal clear on this, and we 
ought not allow that aggressive behavior by the Russians to be 
rewarded. To accept Russian aggression in Crimea and with 
respect to Ukraine is just going to invite additional Russian 
aggression, whether it is in Lithuania, whether it is in 
Latvia, whether it is in Estonia, whether it is in Poland.
    I think this language sends the wrong message altogether, 
and it does invite some international supervised process, 
whatever that means, to come in and just muddy the whole 
situation up, and it ultimately gives the Ukrainians a 
decision, which is kind of a take-it-or-leave-it thing. We 
ought not to go down that road. That is the wrong way to go. We 
ought to stay with our position, which is, Russia, get out of 
Crimea.
    And I thank the gentleman for his leadership on this issue. 
And I yield back to Mr. Connolly.
    Mr. Smith. You still have some time remaining.
    Mr. Connolly. I would be glad to yield to anyone or yield 
back, Mr. Chairman. I know we are pressed for time.
    Mr. Smith. The gentleman yields back.
    I recognize myself in favor of the amendment.
    Let me just say to my colleagues, I remember standing with 
Ronald Reagan in my first term, 35 years ago, when he 
proclaimed Captive Nations Week and continued a tradition that 
began in the late 1940s, that was through Democrat and 
Republican administrations, of not recognizing Latvia, 
Lithuania, and Estonia, because they were captive nations.
    Our maps did not recognize that they had been annexed, 
conquered by the Soviet Union. And we stood firm. Half a 
century later, those countries are free and prospering and 
great friends and allies in the European Union, as well as with 
the United States and NATO.
    Let me just say that I think this language, well-meaning as 
it is, to me looks like an engraved invitation to do something 
other than recognize Ukraine's sovereignty over the Crimea. You 
know, when we say, ``to the satisfaction of a democratically-
elected government of Ukraine,'' Ukraine is under tremendous 
pressure, both financially and militarily, with such occupiers 
and such acts aggression happening every single day, now 
outside of Crimea, in other parts of Ukraine. And they would be 
at a very disadvantaged position to resist international 
pressure to accept a solution that is not truly in their best 
interest.
    So I support the Connolly amendment, and I do yield back my 
time.
    I would like to go to the Democrat side next. I can't see 
it.
    Mr. Boyle, sorry.
    Mr. Boyle. I know I am way down here. But thank you, Mr. 
Chairman.
    I just want to speak briefly to strongly support the 
Connolly amendment. You know, since the end of World War II, 
the first time we have seen the boundaries actually jeopardized 
in Europe, one nation-state invading another, was Putin's 
invasion of Crimea.
    We need to be doing far more to support Ukraine. We cannot 
support some process by which essentially it would be agreed 
that Russian aggression is being rewarded. That would be a 
mistake for Ukraine, it would be a mistake for the Baltics, and 
it would be a mistake for the rest of Europe.
    Putin's actions in Crimea and actions that continue today 
in the eastern part of Ukraine, where people are suffering, 
where relatives of constituents of mine in Philadelphia and 
suburban Philadelphia continue to suffer, to recognize and 
actually award that sort of aggression would be a mistake with 
terrible consequences. And if we learned nothing from history, 
that is something that we should have learned and relearned by 
now.
    So I strongly support the Connolly amendment, and I will 
take this opportunity, again, to urge our own administration to 
be doing more to assist Ukraine in their time of need.
    I yield back.
    Mr. Smith. Thank you, Mr. Boyle.
    I would like to yield 5 minutes to Mr. Rohrabacher, the 
gentleman from California.
    Mr. Rohrabacher. Thank you very much. And I also appreciate 
the fact that the chair recognized captive nations speeches by 
the President, because I am the one who wrote them. It seems 
that we are having time for a little philosophical part of the 
discussion. Let me share this, especially with Mr. Connolly.
    When I was working on this captive nation speech for 
President Reagan, I remember what almost scuttled the first 
captive nation speech that I worked on, and that was I wanted 
to be fair about it, and I wanted to declare that the Russian 
people themselves were the first captive nation, that they 
themselves had been oppressed by communism, and it was 
communism that was the enemy, not Russian people.
    And you know that the Baltic groups, especially, but the 
other people who were now in those occupied countries at the 
time were so adamant that we not include anything about the 
damn Russians. They hated the Russians. They did not 
differentiate between the Soviet Union and the Russian people. 
And they almost, with their hatred toward the Russian people, 
almost scuttled the President of the United States' solid 
statement on how we were opposed to the Russians occupying all 
of these countries in Eastern Europe.
    That is the same mentality that is going on today. There is 
such a hatred. It is based on basically an historic hatred for 
the fact that Stalin and Russian people under Communist control 
murdered millions of people throughout Europe and these 
countries. They can't get rid of that hatred and that 
resentment toward that country which they see has caused that, 
when it was really communism, it was the evil of communism.
    It is like right now, we shouldn't hate the people of Iran. 
You and I, Mr. Connolly, agree totally on Iranian policy. We 
don't hate the people of Iran. We don't like the mullahs and 
that vicious dictatorship of the mullahs that is pro-terrorist.
    Well, I believe that a lot of what we are talking about 
dealing with whether it is Ukrainian policy or whether it is--
wherever that is, it is all based on a hatred of Russia and an 
unwillingness, thus, to see that Saakashvili was the one who 
caused the crisis in Georgia. He is the one who broke a long-
term truce, sent troops in, and murdered, I might add, truce 
observers that were unarmed, Russian truce observers.
    So we don't want to recognize that as a factor. For the 
Russians, that was a major factor. There would not have been 
any Russian troops going into that area, had Saakashvili not 
done that.
    And I will tell you, when it comes to Georgia, that is one 
thing. We have Ukraine. And, Mr. Connolly, I respect you, you 
are my friend, but I also respect your opinions. But the fact 
is, you just mentioned, yeah, we overthrew that former 
government that was a kleptocracy. That was a conspiracy from 
our EU members and in collusion with the United States to 
overthrow an elected government.
    Chris Smith will tell you, he was there observing the 
election of Yanukovych. Yanukovych was a legally-elected 
President who was overthrown, and if they would have waited 
until the next election, there would have been none of this 
problem. The Russians would not have gone in if he would have 
lost the election. But instead, we overthrew, we participated 
in collusion with the overthrow of an elected government that 
then threatened the status quo to the detriment of Russia.
    We have to expect Russia to watch out for its own 
interests. What would we do if that same thing happened in 
Mexico? We would be involved.
    Well, I suggest that we need to make sure that we try to, 
number one, live at peace with Russia, recognizing that it is 
no longer the Soviet Union, but it is a country that is large 
and has its interests, the same way we do and other countries 
that are allied with us do. And we cannot just have a double 
standard, saying we can overthrow that government in Ukraine 
and the Russians have to accept it.
    And we have, in terms of self-determination, I really 
appreciate Mr. Sherman's remarks about the Declaration of 
Independence. I will think about what he just said. But we may 
have a difference in philosophy, not with Brad, but here in 
this committee, as to whether or not the right of self-
determination is something that should be a consideration of 
U.S. policy.
    So with that said----
    Mr. Sherman. If the gentleman will yield? I fully agree 
with----
    Mr. Smith. The gentleman is out of time.
    Mr. Rohrabacher. My time is up. Thank you very much. I 
appreciate it.
    Mr. Smith. The Chair recognizes Mr. Sherman.
    Mr. Sherman. I would just say that I may not accept Mr. 
Rohrabacher's views anywhere else in the world, but an 
independent San Fernando Valley is something I am looking 
forward to.
    Mr. Rohrabacher. I supported that.
    Mr. Smith. Do you yield back?
    Do any other members seek recognition on the Connolly 
amendment?
    Mr. Connolly. Mr. Chairman, might I just note for the 
record, because he is necessarily on the floor, the author of 
the resolution has endorsed this amendment, for the record.
    Mr. Ribble. Mr. Chairman.
    Mr. Smith. The Chair recognizes Mr. Ribble.
    Mr. Ribble. Mr. Chairman, thank you for a moment to speak 
on this issue, and I will be brief.
    There are about 55 miles at the narrowest point that 
separates the United States in the State of Alaska from the 
Russian border. Under this self-determination argument that has 
been made here, if a certain percentage of Alaskans decided 
they want to be part of Russia, would we ever, under any 
circumstances--ever, under any circumstances--accept a Russian 
invasion of Alaska? We would not.
    I support this amendment, and I encourage its adoption.
    I yield back.
    Mr. Smith. Thank you, Mr. Ribble.
    Hearing no further requests for time, the question occurs 
on the amendment offered by Mr. Connolly.
    All those in favor, say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Hearing no further requests for amendments, the Chair now 
moves that the committee agree to H.R. 5094, as amended.
    All those in favor, say aye.
    All those opposed say, no.
    In the opinion of the Chair, the ayes have it, and H.R. 
5094, as amended, is agreed to.
    Without objection, the amended bill is ordered favorably 
reported as a single amendment in the nature of a substitute. 
Staff is directed to make any technical and conforming changes, 
and the chairman is authorized to seek House consideration 
under suspension of the rules.
    That concludes our business for today. I want to thank 
members on both sides of the aisle for their input.
    The committee is adjourned.
    [Whereupon, at 10:37 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              

  Statement submitted for the record by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New Jersey
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
